          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report
Management Controls over the
University of California’s Contributions to
the Los Alamos National Laboratory
Foundation




OAS-M-06-03                             December 2005
inappropriately charged its annual contributions as an allowable General and
Administration expense to the Department instead of incurring the costs as a University
expense as required by the contract modification.

University officials charged the Department for their portion of the Foundation
contributions because they believed the contract would be modified based on their
proposal to make the contributions allowable costs. The official contract files indicate
that the contract was modified in 1999, authorizing the University to make the annual
contributions for FYs 1998 and 1999 allowable under the contract. However, the
modification did not state that subsequent years' contributions would be allowable.
According to Los Alamos Site Office counsel, it was unclear as to how the modification
affected the subsequent years' contributions. We also contacted the contracting officer
who issued the 1999 modification to determine if a modification making all contributions
to the Foundation allowable costs was executed. He stated that he had no recollection of
such a modification and would have to research the contract files. As of November 21,
2005, he had not provided any additional information.

As a result, since FY 1998, the Department reimbursed the University $6 million for
unallowable contributions. Such funds could have been used for other Los Alamos
mission priorities.

RECOMMENDATIONS

We recommend that the Manager, Los Alamos Site Office:

   1. Make a determination regarding the allowability of the $6 million in contributions
      charged to the contract; and,

   2. Clarify whether future contributions are an allowable cost under the contract.


MANAGEMENT REACTION AND AUDITOR RESPONSE

Management generally agreed with the report. Management stated that the appropriate
Contracting Officer will make a determination as to the allowability of $6 million and
will clarify whether future contributions are an allowable cost. Management's comments
are included in their entirety as Appendix 1.

Management's planned actions are responsive to our recommendations.

OTHER MATTERS

The Department did not specify the appropriate funding mechanism through which the
University could make contributions for educational enrichment to the Foundation that
would be charged to the Government. Specifically, the Department allowed the
University to charge an annual $2 million contribution as an allowable cost to the


                                            2
contract, in conflict with Federal cost principles. Department officials agreed that the use
of a grant would have been a more appropriate mechanism for providing educational
enrichment to assist communities impacted by Departmental activities in Northern New
Mexico.

SCOPE AND METHODOLOGY

The audit was performed at the Los Alamos Site Office, Los Alamos National
Laboratory, and the National Nuclear Security Administration's Albuquerque Service
Center from July 20, 2004, to November 21, 2005. To accomplish the audit objective,
we:

       •   Reviewed the Department's contract with the University;

       •   Examined the Contracting Officer's files; and,

       •   Held discussions with Department and Los Alamos personnel.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits, and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the objective of the audit.
Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We did not conduct a
reliability assessment of computer-processed data because only a very limited amount of
computer-processed data was used during the audit. We discussed the results of the audit
with Los Alamos and Department officials on November 21, 2005. Management waived
an exit conference.

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Deputy Administrator for Defense Programs




                                             3
APPENDIX 1
                                                            IG Report No. OAS-M-06-03



                         CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date ______________________________

Telephone                                     Organization _______________________


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
